CERTIFICATE OF WORD COUNT
I, Aric Elsenheimer, counsel for defendant-petitioner Arthur
Perrault, certify this petition for certiorari conforms to the typevolume limitations of Rule 33 of the Rules of the Supreme Court of
the United States . The brief uses a Century Schoolbook, a
proportionally spaced 14-point type. Excluding table of contents and
table of citations, it contains 4,314 words. I relied on my word
processor, Word Version 2016, to obtain the word count.
I certify this certificate of compliance is true and correct to the
best of my knowledge and belief formed after a reasonable inquiry.

s/ Aric G. Elsenheimer
Attorney for Appellant

